HHS/OIG-Audit--"Overlapping Inpatient Treatment Expenditures for DOD Beneficiaries Enrolled in Medicare Health Maintenance Organization Plans, (A-14-99-00208)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Overlapping Inpatient Treatment Expenditures for DOD Beneficiaries Enrolled
in Medicare Health Maintenance Organization Plans," (A-14-99-00208)
June 18, 1999
Complete Text of Report is available in PDF format
(1.11 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This Department of Defense (DOD) OIG review, with assistance from the HHS OIG,
was made as part of the HHS OIG's partnership initiatives to expand audit coverage
of the Medicare and Medicaid programs. The DOD OIG's report points out that
military treatment facilities provided inpatient treatment to dual eligible
beneficiaries who were also enrolled in Medicare's risk-based health maintenance
organizations (HMO). As a result, the DOD expended about $45.2 million in Fiscal
Year 1997 for inpatient care for DOD dual eligible beneficiaries on whose behalf
the Health Care Financing Administration (HCFA) made per capita payments to
HMOs. The DOD OIG recommended that DOD consult with HHS and the Office of Management
and Budget to develop a strategy, including potential legislative action, to
reduce or eliminate overlapping expenditures for DOD beneficiaries, age 65 and
older, who are enrolled in HMO plans and provided access to military treatment
facilities. We fully support the DOD OIG recommendation and encourage HCFA to
work with DOD to eliminate these duplicate expenditures of Federal funds.